      DEPARTMENT OF HEALTH & HUMAN SERVICES                           Office of Inspector General

                                                                       Washington, D.C. 20201




December 30, 2010

TO:           David Hansell
              Acting Assistant Secretary
              Administration for Children and Families


FROM:         /Daniel R. Levinson/
              Inspector General


SUBJECT:      Audit of Allegheny County Title IV-E Foster Care Claims From October 1997
              Through September 2002 (A-03-08-00554)


Attached, for your information, is an advance copy of our final report on Allegheny County
Title IV-E foster care claims from October 1997 through September 2002. We will issue this
report to the Pennsylvania Department of Public Welfare within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me,
or your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov or Stephen Virbitsky, Regional Inspector General for Audit Services,
Region III, at (215) 861-4470 or through email at Stephen.Virbitsky@oig.hhs.gov. Please refer
to report number A-03-08-00554.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region III
                                                                          Public Ledger Building, Suite 316
                                                                          150 S. Independence Mall West
                                                                          Philadelphia, PA 19106-3499



January 4, 2011

Report Number: A-03-08-00554

Mr. Michael Nardone
Acting Secretary of Public Welfare
Pennsylvania Department of Public Welfare
P.O. Box 2675
Harrisburg, PA 17105

Dear Mr. Nardone:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Audit of Allegheny County Title IV-E Foster Care Claims
From October 1997 Through September 2002. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Michael Walsh, Audit Manager, at (215) 861-4480 or through email at
Michael.Walsh@oig.hhs.gov. Please refer to report number A-03-08-00554 in all
correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Michael Nardone


Direct Reply to HHS Action Official:

Mr. Ron Gardner
Grants Officer
Administration for Children and Families, Region III
U.S. Department of Health & Human Services
Suite 864, Public Ledger Building
150 South Independence Mall West
Philadelphia, PA 19106-3499
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




AUDIT OF ALLEGHENY COUNTY
  TITLE IV-E FOSTER CARE
CLAIMS FROM OCTOBER 1997
 THROUGH SEPTEMBER 2002




                      Daniel R. Levinson
                       Inspector General

                        January 2011
                        A-03-08-00554
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title IV-E of the Social Security Act, as amended, authorizes Federal funds for State foster care
programs. For children who meet Title IV-E requirements, the Administration for Children and
Families (ACF) provides the Federal share of States’ costs, including maintenance (room and
board) costs and administrative and training costs. In Pennsylvania, the Department of Public
Welfare (the State agency) supervises the Title IV-E program.

Allegheny County’s Department of Human Services (DHS), Office of Children, Youth and
Families, administers the Title IV-E program, which includes services for children supervised by
Juvenile Justice Services. DHS determines Title IV-E eligibility and contracts with institutional
care facilities to provide foster care services and with firms that place children in foster family
and group homes. The contracts specify per diem rates negotiated with the respective
contractors. Per diem rates vary by location and the type and extent of services provided. From
October 1997 through September 2002, the State agency claimed $146,115,235 (Federal share)
in Title IV-E maintenance and associated administrative costs on behalf of Allegheny County
children.

OBJECTIVE

Our objective was to determine whether the State agency claimed Title IV-E maintenance and
associated administrative costs for Allegheny County in accordance with Federal requirements
from October 1997 through September 2002.

SUMMARY OF FINDINGS

The State agency did not always claim Title IV-E maintenance and associated administrative
costs for Allegheny County in accordance with Federal requirements. Of the 100 maintenance
claims sampled, 62 were allowable. However, 23 claims were unallowable because they
included costs for services provided to ineligible children. Some of the 23 claims contained
multiple errors.

Based on these sample results, we estimated that the State agency improperly claimed
$17,284,239 for Title IV-E maintenance costs. Including associated administrative costs of
$11,022,902, we estimated that the State agency improperly claimed at least $28,307,141 of the
total $146,115,235 (Federal share) claimed for Title IV-E reimbursement on behalf of Allegheny
County children.

We were unable to determine the allowability of the 15 remaining sampled claims because the
contractors’ per diem rates did not distinguish between services that were eligible or ineligible
for Title IV-E reimbursement and because the State agency did not provide a description of the
sundry costs claimed. However, court records, case workers’ progress notes, and other
documentation indicated that the facilities provided some services, such as medical, educational,




                                                 i
and rehabilitative services, that were not eligible for Title IV-E foster care maintenance
payments. Based on these sample results, we set aside $27,913,816 for resolution by ACF.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $28,307,141, including $17,284,239 in unallowable
       maintenance costs and $11,022,902 in unallowable administrative costs, for the period
       October 1997 through September 2002;

   •   work with ACF to determine the allowability of $27,913,816 related to claims that
       included both allowable and unallowable services;

   •   work with ACF to identify and resolve any unallowable claims for maintenance payments
       made after September 2002 and refund the appropriate amount;

   •   discontinue claiming Title IV-E reimbursement for ineligible children and ineligible
       services;

   •   direct Allegheny County to develop rate-setting procedures that separately identify
       maintenance and other costs, including related administrative costs, so that claims are
       readily allocable to the appropriate Federal, State, and local funding sources; and

   •   direct Allegheny County to describe the services provided when claiming sundry costs.


STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency disagreed with our findings and
recommendations. The State agency questioned our authority to conduct the audit and stated that
our recommendations were without merit and contrary to law. We have included the State
agency’s comments as Appendix E. We excluded the exhibits accompanying the State agency’s
comments because of their volume and because some contained personally identifiable
information.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain the validity of our recommendations,
as well as our conclusion that the State agency did not always comply with Federal requirements
when claiming Title IV-E costs for Allegheny County children.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                           Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Title IV-E Foster Care Program ...................................................................1
              Federal and State Licensing Requirements ..................................................1
              Allegheny County’s Title IV-E Program .....................................................2
              Audits of the State Agency’s Title IV-E Claims .........................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ............................................................................................................2
               Methodology ................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          COSTS CLAIMED FOR SERVICES PROVIDED TO INELIGIBLE CHILDREN ...5
               Remaining in the Home Contrary to the Welfare of the Child ....................5
               Income Requirements ..................................................................................6
               Reasonable Efforts To Prevent Removal From the Home...........................6
               Age Requirements ........................................................................................7

          COSTS CLAIMED FOR INELIGIBLE SERVICES ..............................................7

          SUMMARY OF UNALLOWABLE AND POTENTIALLY
            UNALLOWABLE TITLE IV-E COSTS ............................................................8

          RECOMMENDATIONS .........................................................................................9

          STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
            RESPONSE .........................................................................................................9
               Scope of Audit ...........................................................................................10
               Program Operating Responsibilities ..........................................................10
               Audit Period ...............................................................................................11
               Associated Administrative Costs ...............................................................12
               Sampling Estimation and Set-Aside Calculation .......................................13
               Documentation for Sampled Claims ..........................................................13




                                                                    iii
APPENDIXES

    A: PREVIOUSLY ISSUED REPORTS ON PENNSYLVANIA’S TITLE IV-E CLAIMS

    B: SAMPLING METHODOLOGY

    C: SAMPLE RESULTS AND ESTIMATES

    D: DEFICIENCIES OF EACH SAMPLED CLAIM

    E: STATE AGENCY COMMENTS




                                iv
                                       INTRODUCTION

BACKGROUND

Title IV-E Foster Care Program

Title IV-E of the Social Security Act (the Act), as amended, authorizes Federal funds for States
to provide foster care for children under an approved State plan. At the Federal level, the
Administration for Children and Families (ACF) administers the program.

For children who meet Title IV-E foster care requirements, Federal funds are available to States
for maintenance, administrative, and training costs:

   •   Maintenance costs cover room and board payments to licensed foster parents, group
       homes, and institutional care facilities. The Federal share of maintenance costs is based
       on each State’s Federal rate for Title XIX (Medicaid) expenditures. During our audit
       period, the Federal share of Pennsylvania’s maintenance costs ranged from 52.85 percent
       to 54.21 percent.

   •   Administrative costs cover staff activities such as case management and supervision of
       children placed in foster care and children considered to be Title IV-E candidates,
       preparation for and participation in court hearings, placement of children, recruitment and
       licensing for foster homes and institutions, and rate setting. Also reimbursable under this
       category is a proportionate share of overhead costs. The Federal share of administrative
       costs allocable to the Title IV-E program is 50 percent.

   •   Training costs cover the training of State or local staff to perform administrative activities
       and the training of current or prospective foster care parents, as well as personnel of
       childcare institutions. Certain State training costs qualify for an enhanced 75-percent
       Federal funding rate.

In Pennsylvania, the Department of Public Welfare (the State agency) supervises the Title IV-E
foster care program through its Office of Children, Youth, and Families. The State agency
administers the program through the counties.

Federal and State Licensing Requirements

Section 472(c) of the Act requires that foster homes and childcare institutions be licensed or
approved as meeting the standards established for such licensing by the State to receive
Title IV-E reimbursement. The Pennsylvania State plan incorporates by reference Pennsylvania
Code requirements for licensing and approving Title IV-E reimbursable institutions (55 PA.
CODE chapters 3680, 3700, and 3800). The State agency grants licenses in accordance with
Federal and State requirements, including standards related to admission policies, safety,
sanitation, and the protection of civil rights.




                                                 1
Allegheny County’s Title IV-E Program

In Allegheny County, the Department of Human Services (DHS), Office of Children, Youth and
Families, administers the Title IV-E program, which includes services for children supervised by
Juvenile Justice Services. DHS determines Title IV-E eligibility and contracts with institutional
care facilities to provide foster care and with firms that place children in foster family and group
homes. The contracts specify per diem rates negotiated with the respective contractors. Per
diem rates vary by location and the type and extent of services provided.

Contractors submit invoices to DHS based on the negotiated per diem rates. DHS pays the
invoices and then submits quarterly summary invoices to the State agency. DHS claims
administrative costs separately. The State agency consolidates the claims from all 67 counties,
including Allegheny County, and submits Quarterly Reports of Expenditures and Estimates
(Forms ACF-IV-E-1) to ACF to claim Federal funding.

Audits of the State Agency’s Title IV-E Claims

We are performing a series of audits of the State agency’s Title IV-E foster care claims.
Appendix A lists the five previously issued reports, of which the first four focused on
Philadelphia County. The fifth report focused on foster care claims made on behalf of children
aged 19 or older in 65 of the State’s 67 counties. This report, the sixth in the series, focuses on
Allegheny County.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Title IV-E maintenance and
associated administrative costs for Allegheny County in accordance with Federal requirements
from October 1997 through September 2002.

Scope

Our review covered 126,283 claims for Title IV-E maintenance and associated administrative
costs totaling $146,115,235 (Federal share). During the audit period, DHS submitted 33
quarterly summary invoices to the State agency for Title IV-E maintenance and associated
administrative costs. DHS provided the State agency with detailed lists in support of the
summary invoices. Each line on the detailed lists showed a child’s name; the claim period; and
the clothing costs, sundry costs, and maintenance costs claimed for the child. (In this report, we
refer to these lines as “claims.”)

From the sampling frame of 126,283 claims, we selected a random sample of 100 claims totaling
$64,363 (Federal share) for Title IV-E maintenance costs. Fifty-one contractors provided the
services for the 100 sampled claims at 83 facilities, primarily foster family homes, as well as
some group homes and institutional care facilities. Appendix B explains our sampling
methodology, and Appendix C details the sample results and estimates.



                                                  2
We requested, but the State agency did not provide, DHS’s contracts with the foster care
providers associated with our sampled claims. In addition, the State agency was unable to
identify the specific costs and services included in the per diem rates paid to institutions. We
also requested but did not receive a description of the types of sundry services included on four
sampled claims.

Some services that we identified as unallowable for reimbursement as Title IV-E foster care
costs, or for which we were unable to express an opinion, may have been allowable for
reimbursement through other Federal programs. However, determining the allowability of costs
for other Federal programs was not within the scope of this audit.

We reviewed only those internal controls considered necessary to achieve our objective.

We performed our fieldwork at the State agency in Harrisburg and Pittsburgh, Pennsylvania.

Methodology

To accomplish our objective, we:

   •   reviewed Federal and State criteria related to Title IV-E foster care claims,

   •   interviewed State agency personnel regarding the State agency’s claims,

   •   reviewed the State agency’s accounting system and reconciled vouchers to the Forms
       ACF-IV-E-1 to identify all maintenance costs claimed for Federal reimbursement during
       the audit period,

   •   obtained from the State agency DHS’s quarterly summary invoices and detailed lists
       supporting the invoices,

   •   identified all Title IV-E maintenance claims,

   •   reviewed documentation provided by the State agency in support of the 100 sampled
       claims and reconciled maintenance costs to the amounts posted in the State agency’s
       accounting records,

   •   reviewed licensing or approval information provided by the State agency for the
       contractors included in our sample, and

   •   requested all 51 contracts between DHS and the contractors included in our sample.

State agency officials directed us to address all requests for information to the State agency
instead of going directly to the social workers, the courts, or Allegheny County. Initially, we
requested Allegheny County’s social worker case files, court orders, facility licenses, contracts,
billing information, and any other documentation to support the State agency’s claims. The State



                                                 3
agency supplied court orders, Client Information System data, social worker notes, and other
data. 1

After reviewing the information supplied by the State agency, we provided the State agency with
a list of the documentation that we had requested but did not receive. As of June 15, 2009, the
State agency informed us that after diligently searching its records, it was unable to locate many
of the requested documents.

We questioned each unallowable claim only once regardless of how many errors it contained.
Based on the errors in the sample, we estimated the dollar value of the errors in our sampling
frame.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

The State agency did not always claim Title IV-E maintenance and associated administrative
costs for Allegheny County in accordance with Federal requirements. Of the 100 maintenance
claims sampled, 62 were allowable. However, 23 claims were unallowable because they
included costs for services provided to ineligible children. Some of the 23 claims contained
multiple errors, as shown in Appendix D.

Based on these sample results, we estimated that the State agency improperly claimed
$17,284,239 for Title IV-E maintenance costs. Including associated administrative costs of
$11,022,902, we estimated that the State agency improperly claimed at least $28,307,141 of the
total $146,115,235 (Federal share) claimed for Title IV-E reimbursement on behalf of Allegheny
County children.

We were unable to determine the allowability of the 15 remaining sampled claims because the
contractors’ per diem rates did not distinguish between services that were eligible or ineligible
for Title IV-E reimbursement and because the State agency did not provide a description of the
sundry costs claimed. However, court records, case workers’ progress notes, and other
documentation indicated that the facilities provided some services, such as medical, educational,
and rehabilitative services, that were not eligible for Title IV-E foster care maintenance
payments. Based on these sample results, we set aside $27,913,816 for resolution by ACF.




1
    The Client Information System is a statewide database of individuals who participate in social service programs.


                                                            4
COSTS CLAIMED FOR SERVICES PROVIDED
TO INELIGIBLE CHILDREN

The State agency submitted 23 claims totaling $22,804 for services provided to children who did
not meet Title IV-E foster care eligibility requirements. We questioned many of these claims for
multiple reasons.

      •    For 16 claims, the State agency did not document that remaining in the home was
           contrary to the children’s welfare or that placement would be in the best interest of the
           children.

      •    For 11 claims, the State agency did not document computation of the children’s family
           incomes.

      •    For nine claims, the State agency did not document that it had made reasonable efforts to
           prevent the children’s removal from the home or that such efforts were not required.

      •    For four claims, the children did not meet Title IV-E age requirements.

Remaining in the Home Contrary to the Welfare of the Child

Section 472(a)(1) of the Act required that “the removal from the home occurred pursuant to a
voluntary placement agreement entered into by the child’s parent or legal guardian, or was the
result of a judicial determination to the effect that continuation therein would be contrary to the
welfare of such child ….” 2 Pursuant to 45 CFR § 1356.21(d), judicial determinations that
remaining in the home would be contrary to the welfare of the child or that placement would be
in the best interest of the child must be documented by a court order or a transcript of the court
proceedings. 3

For 16 claims, the State agency did not provide the necessary documentation to meet these
requirements. Specifically, the State agency did not provide any documentation to indicate that
it had entered into voluntary placement agreements with the children’s parents or legal
guardians, nor did it provide court orders or transcripts to document that remaining in the home
would be contrary to the children’s welfare.

      •    Documentation for nine claims did not include any voluntary placement agreements,
           court orders, or transcripts.

      •    Documentation for seven claims included court orders for the commitment of the
           children, but the court orders did not show that continuation in the home would be
           contrary to the children’s welfare or that placement would be in the best interest of the
           children.
2
 Section 472(a) of the Act was amended effective October 1, 2005. The applicable section is now 472(a)(2), which
provides substantially similar requirements for removal of the child from the home.

3
    This regulatory requirement became effective on March 27, 2000 (65 Fed. Reg. 4020 (Jan. 25, 2000)).


                                                          5
Income Requirements

Section 472(a)(4)(A) of the Act defined the needy child, in part, as one who “would have
received aid [Aid to Families with Dependent Children (AFDC)] under the State plan approved
under section 402 of this title (as in effect on July 16, 1996) in or for the month in which such
[voluntary placement] agreement was entered into or court proceedings leading to the removal of
such child from the home were initiated ….” 4

Section 2 of Pennsylvania’s State plan incorporates, by reference to Office of Children, Youth
and Families Bulletin 3140-01-01, the “standard of need” for each county based on countable
family income and the number of family members. Countable income considers various
expenses and payments, as well as earned wages and other household income. For Allegheny
County, the standard of need was based on a maximum countable income ranging from $298 per
month for a family of one to $976 per month for a family of six, with an additional allowance of
$121 per family member over six.

For 11 claims, the State agency did not document that it had computed countable family income
or determined that the children would have received aid under Pennsylvania’s AFDC plan, as in
effect on July 16, 1996.

    •   For 10 claims, the documentation that the State agency provided did not identify wages
        or other household incomes and resources.

    •   For one claim, the State’s Client Information System showed that the child’s legal
        guardian worked full time and that the family income exceeded the standard of need.

Reasonable Efforts To Prevent Removal From the Home

Section 471(a)(15)(B) of the Act states: “[E]xcept as provided in subparagraph (D), reasonable
efforts shall be made to preserve and reunify families—(i) prior to the placement of a child in
foster care, to prevent or eliminate the need for removing the child from the child’s home ….”
Regulations (45 CFR § 1355.20) require a permanency hearing “no later than 12 months after the
date the child is considered to have entered foster care … or within 30 days of a judicial
determination that reasonable efforts to reunify the child and family are not required.” 5 Pursuant
to 45 CFR § 1356.21(d), judicial determinations that reasonable efforts have been made or are
not required must be “explicitly documented” and stated in the court order or a transcript of the
court proceedings.


4
  Section 472(a) of the Act was amended effective October 1, 2005. The applicable section is now 472(a)(3), which
provides a substantially similar definition of the needy child. The Personal Responsibility and Work Opportunity
Reconciliation Act of 1996 repealed AFDC and established in its place the Temporary Assistance for Needy
Families block grant. However, Title IV-E foster care requirements look back to the 1996 AFDC criteria for
eligibility.

5
 This definition of a “permanency hearing” became effective on March 27, 2000 (65 Fed. Reg. 4020 (Jan. 25,
2000)).


                                                        6
For nine claims, the State agency did not provide the necessary documentation to meet these
requirements. Specifically, the State agency did not provide any court orders or transcripts to
document judicial determinations that reasonable efforts had been made to prevent the children’s
removal from the home or that reasonable efforts were not required.

Age Requirements

Section 472(a) of the Act states that children for whom States claim Title IV-E funding must
meet the eligibility requirements for AFDC as established in section 406 or section 407 (as in
effect on July 16, 1996). Section 406(a)(2), as in effect on July 16, 1996, stated that the children
must be “(A) under the age of eighteen, or (B) at the option of the State, under the age of
nineteen and a full-time student in a secondary school (or in the equivalent level of vocational or
technical training), if, before he attains age nineteen, he may reasonably be expected to complete
the program of such secondary school (or such training).”

The State agency submitted four claims for children who were at least 18 years of age and for
whom it did not provide sufficient evidence that the children were full-time students in
secondary school or the equivalent or could reasonably have been expected to complete a
secondary education program before the age of 19.

COSTS CLAIMED FOR INELIGIBLE SERVICES

Section 475(4)(A) of the Act defines “foster care maintenance payments” as:

        … payments to cover the cost of (and the cost of providing) food, clothing,
        shelter, daily supervision, school supplies, a child’s personal incidentals, liability
        insurance with respect to a child, and reasonable travel to the child’s home for
        visitation. In the case of institutional care, such term shall include the reasonable
        costs of administration and operation of such institution as are necessarily
        required to provide the items described in the preceding sentence. 6

ACF policy (ACYF-PA-87-05, Oct. 22, 1987, in the section titled “Unallowable Cost”) provides
examples of services that are not reimbursable under Title IV-E, including “physical or mental
examinations, counseling, homemaker or housing services and services to assist in preventing
placement and reuniting families.” ACF policy (ACYF-CB-PIQ-97-01, Mar. 4, 1997) states that
“education is not in the definition found at section 475(4)(A).”

The maintenance costs included on the 100 sampled claims were based on per diem rates that
ranged from $15 to $205.90. For 25 of the 100 claims, we were unable to determine whether the
maintenance costs were limited to costs for allowable Title IV-E services.

For 21 of the 25 claims, the State agency did not provide information about which services were
used to develop the per diem rates on which the claims were based and did not require the

6
  Section 475(4)(A) of the Act was amended effective October 7, 2008, to add reasonable travel for the child to
remain in the school in which the child was enrolled at the time of placement but did not otherwise change this
definition.


                                                         7
contractors to itemize charges for services claimed. However, court records, case workers’
progress notes, and other documentation indicated that the facilities provided some services that
are not specified in section 475(4)(A) of the Act and that are therefore not eligible for Title IV-E
maintenance funding. These services included medical, educational, and rehabilitative services,
such as counseling and physical, occupational, or speech therapy. 7 For example:

    •    The State agency claimed maintenance costs for a child based on a per diem rate of
         $205.90. The delinquency court order stated that the child should remain at the facility
         and receive counseling. The court order also authorized routine medical and
         psychological examinations and procedures.

    •    The State agency claimed maintenance costs for another child based on a per diem rate of
         $143.80. The preliminary court documents for this child’s hearing stated that the
         provider would assess the family for family therapy and that the child would receive
         mental health treatment and therapeutic services.

Four of the twenty-five claims were for sundry services for which the State agency did not
provide a description. For example, in addition to submitting a claim for room and board, the
State agency submitted a $378 claim for “sundry services” on behalf of a child. DHS’s detailed
list gave no explanation of the services provided. However, the claim identified the provider as
Primary Care Health Services, which provides health and behavioral services through a network
of clinics.

We were unable to determine allowable maintenance costs for the 25 claims because they lacked
sufficient information about the services provided. Ten of these claims were unallowable
because they included costs for services provided to ineligible children. We were unable to
determine the costs for ineligible services included on the 15 remaining claims.

SUMMARY OF UNALLOWABLE AND POTENTIALLY
UNALLOWABLE TITLE IV-E COSTS

Of the 100 sampled claims, 23 claims totaling $22,804 were unallowable because they included
maintenance costs for services that were provided to ineligible children. Based on these sample
results, we estimated that the State agency improperly claimed at least $17,284,239 (Federal
share) in maintenance costs. In addition, we estimated that the State agency claimed at least
$11,022,902 (Federal share) in administrative costs associated with the unallowable maintenance
costs. 8 These administrative costs also were unallowable.

We were unable to determine the allowability of 15 sampled claims totaling $13,497 because the
State agency did not provide information about the services included in the contractors’ per diem
7
 Some of these services may be allowable under other Federal programs or under State and local programs.
However, determining the allowability of services under other programs was beyond the scope of this audit.
8
 We calculated unallowable administrative costs by dividing the State agency’s total Title IV-E claims for
administrative costs ($593,233,356) by its total Title IV-E claims for maintenance costs ($857,954,391) plus training
costs ($72,252,983). We then applied the resultant percentage to the estimated $17,284,239 in unallowable
maintenance costs.


                                                         8
rates and their relative costs or a description of the sundry costs claimed. 9 Based on these sample
results, we set aside $27,913,816 (Federal share consisting of $17,044,076 in maintenance costs
and $10,869,740 in associated administrative costs) for resolution by ACF. 10

RECOMMENDATIONS

We recommend that the State agency:

     •   refund to the Federal Government $28,307,141, including $17,284,239 in unallowable
         maintenance costs and $11,022,902 in unallowable administrative costs, for
         October 1997 through September 2002;

     •   work with ACF to determine the allowability of $27,913,816 related to claims that
         included both allowable and unallowable services;

     •   work with ACF to identify and resolve any unallowable claims for maintenance payments
         made after September 2002 and refund the appropriate amount;

     •   discontinue claiming Title IV-E reimbursement for ineligible children and ineligible
         services;

     •   direct Allegheny County to develop rate-setting procedures that separately identify
         maintenance and other costs, including related administrative costs, so that claims are
         readily allocable to the appropriate Federal, State, and local funding sources; and

     •   direct Allegheny County to describe the services provided when claiming sundry costs.

STATE AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In its written comments on our draft report, the State agency disagreed with our findings and
recommendations. The State agency questioned our authority to conduct the audit and stated that
our recommendations were without merit and contrary to law. The State agency also said that
we had singled out Pennsylvania for an audit of unprecedented size and scope, unlawfully
assumed ACF’s program operating responsibilities, focused on practices from many years ago,
and lacked a foundation for questioned costs.

We have summarized the State agency’s comments, along with our responses, below, and we
have included those comments as Appendix E. We excluded the exhibits accompanying the
State agency’s comments because of their volume and because some contained personally
identifiable information.

9
 A total of 25 claims appeared to include costs for ineligible services, including 10 claims that were unallowable
because they included costs for services provided to ineligible children.

10
  We calculated the percentage of set-aside administrative costs as described in footnote 8 and applied the resultant
percentage to the estimated $17,044,076 in maintenance costs for which we could not determine the allowability.


                                                          9
Scope of Audit

State Agency Comments

The State agency said that Pennsylvania was being singled out for an unprecedented audit.
According to the State agency, “Pennsylvania stands alone among the fifty states in being
subjected to such a far-reaching, overly-detailed, multi-year review of its Title IV-E claims.”

Office of Inspector General Response

We did not single out Pennsylvania for this audit. ACF requested this review after
Pennsylvania’s large retroactive claims raised concerns. We often conduct extensive audits of
programs. For example, recent multiyear audits of comparable scope included audits of
Medicaid school-based services and Medicaid costs under a waiver agreement in California. We
also conduct audits of relatively comparable scope in States with smaller total claim amounts.

Program Operating Responsibilities

State Agency Comments

The State agency said that ACF had unlawfully transferred, and the Office of Inspector General
(OIG) had wrongfully assumed, program operating responsibilities in violation of the Inspector
General (IG) Act of 1978, as amended (5 U.S.C. App. § 9(a)(2)). The State agency also said that
we lacked the requisite “independence and objectiveness” in deciding to initiate and conduct this
audit.

Office of Inspector General Response

There is no basis for the State agency’s argument that we unlawfully assumed program operating
responsibilities. The IG Act, as interpreted by applicable case law, may in some cases restrict
OIG from conducting “regulatory” audits that are the responsibility of the program agency.
However, our audit was not regulatory in nature. Rather, we conducted a compliance audit
designed to identify the improper expenditure of Federal dollars for the Pennsylvania foster care
program. None of the court cases on which the State agency based its objection questioned
OIG’s authority and responsibility to conduct such audits. In the more recent decision of
University of Medicine and Dentistry of New Jersey v. Corrigan, 347 F.3d 57, 67 (3rd Cir. 2003),
involving the expenditure of Medicare funds, the U.S. Court of Appeals for the Third Circuit
held that “routine compliance audits” that are designed to “enforc[e] the rules” are a proper OIG
function even if the ability to conduct such audits is shared with that of the program agency.
Moreover, the U.S. Court of Appeals for the Fifth Circuit stated in its opinion that under section
9(a)(2) of the IG Act, “for a transfer of function to occur, the agency would have to relinquish its
own performance of that function” (Winters Ranch Partnership v. Viadero, 123 F.3d 327, 334
(5th Cir. 1997); see also United States v. Chevron, 186 F.3d 644, 648 (5th Cir. 1999)). ACF has
continued to perform its own periodic reviews of eligibility in State programs, as required by
ACF regulations, and thus at no time relinquished its program operating function.




                                                10
We also do not agree that we lacked the requisite independence and objectivity for this audit.
ACF did request this audit; however, OIG regularly responds to requests from Members of
Congress, States, ACF, and other U.S. Department of Health & Human Services (HHS) program
agencies, as well as the general public. There is no basis to conclude that the source of a request
undermines the independence with which an audit or other project is performed. The State
agency cited U.S. v. Montgomery County Crisis Center, 676 F. Supp. 98, 99 (D. Md. 1987), to
support its position. In that case, however, the U.S. District Court refused to enforce a subpoena
issued by the Department of Defense (DoD) OIG to a crisis hotline that received a call from a
distressed military employee who allegedly had disclosed classified information. The Naval
Investigative Service had requested that DoD OIG subpoena information from the crisis center to
uncover the identity of the caller. The court gave a number of reasons for refusing to enforce the
subpoena, including because it was issued at the behest of another agency on a security matter
that “was outside the Inspector General’s area of regular responsibility.” The expenditure of
Federal funds for foster care is neither a security issue involving the disclosure of classified
information nor outside HHS OIG’s area of regular responsibility.

Audit Period

State Agency Comments

The State agency said that the audit improperly focused on practices from many years ago rather
than on current practices affecting the quality of childcare services and that Congress was
concerned about this type of review when it enacted section 1123A of the Act (42 U.S.C.
§ 1320a-2a). The State agency also said that we improperly conducted an audit of claims
submitted outside the Federal record retention period. Citing 45 CFR § 74.53, 11 the State agency
said that a State generally is not required to retain financial records or supporting documents for
more than 3 years and therefore should not be subject to disallowance for an audit of claims
beyond the 3-year record-retention period.

Office of Inspector General Response

With respect to congressional concern, section 1123A of the Act provides authority to withhold
funds if a State’s Foster Care and Adoption Program substantially fails to conform to the State
plan. This provision requires the Secretary to implement a system of program reviews through
regulations that specify, among other things, when the reviews will take place. However, the
Departmental Appeals Board (DAB) has ruled that the provision “does not apply to reviews of
past maintenance payments for which a state had claimed FFP [Federal financial participation]
…” (New Jersey Department of Human Services, DAB No. 1797, page 3 (2001)).

The Federal record-retention period does not preclude our review of records that the State agency
provides, or has in its possession, during the audit. Federal regulations (45 CFR § 74.53(e))
provide that “[t]he rights of access … are not limited to the required retention period, but shall
last as long as records are retained.” The requirement for a grantee to keep records for a
specified period protects the grantee in situations in which records are destroyed after the
11
   Effective September 8, 2003, entitlement grant programs administered by HHS fell under the governing
regulations at 45 CFR § 92. The record-retention and access requirement remained substantially the same.


                                                       11
expiration of the retention period pursuant to a statewide records management plan. If the
grantee has maintained records beyond the retention period, 45 CFR § 74.53(e) is clear that
HHS, including OIG, has access to those records. Further, the DAB has ruled that agencies may
disallow costs based on grantee records retained beyond the 3-year retention period (Community
Health and Counseling Services, DAB No. 557, page 4 (1984)).

Additionally, when an audit commences within the retention period, the regulations require the
State to retain records until all audit findings are resolved and final action is taken (45 CFR
§ 74.53(b)(1)). We issued an audit commencement letter in 2000 outlining our planned review
of Pennsylvania’s Title IV-E foster care claims for fiscal years 1998 and 1999. Pennsylvania
subsequently entered into negotiations with ACF to settle a Title IV-A audit as well as to resolve
Title IV-E claims at issue. We did not terminate our audit during that period; rather, we
suspended action pending resolution of the Title IV-E issues. The Title IV-E issues were not
resolved through settlement efforts, and in 2003, we announced our intention to move forward
with the audit announced in 2000, expanding the scope to cover fiscal years 1998 through 2002.

We note that section 5.7 of the Supreme Court of Pennsylvania’s “Record Retention and
Disposition Schedule With Guidelines” requires that the court permanently retain court orders
relating to both dependent and delinquent juvenile cases. The guidelines also require that the
court retain other court records until the child is 25 years old or 10 years after the last action, if
later.

Associated Administrative Costs

State Agency Comments

The State agency said that we had improperly recommended the disallowance of “non-
identifiable” associated administrative costs. According to the State agency, our calculation of
administrative costs associated with the maintenance claims reviewed was unsound because it
applied a statewide ratio to the maintenance claims, which included costs incurred only by
Allegheny County, and because the county’s administrative costs on a per-child basis differ
significantly from those of other counties with much smaller or larger numbers of eligible
children. The State agency also said that because Pennsylvania identified and allocated
administrative costs through a random-moment timestudy, it is incorrect to assume that a
disallowance of a maintenance claim would necessarily result in a proportionate decrease in
associated administrative costs.

Office of Inspector General Response

When maintenance costs are not eligible for Title IV-E funding, the administrative costs
associated with the ineligible maintenance costs are likewise ineligible.

Office of Management and Budget Circular A-87 allows States to identify administrative costs
related to a specific cost objective or to allocate the costs according to an approved allocation
methodology, such as a random-moment timestudy or another quantifiable measure. The State




                                                   12
agency allocated administrative costs based on an approved allocation methodology. Similarly,
we determined unallowable administrative costs associated with ineligible maintenance claims
by applying a proportionate share of the administrative costs to the total costs, including both
maintenance and training costs. We maintain that our approach was reasonable. The State
agency did not offer an alternative method of calculating administrative costs on either a
statewide or county-specific basis.

Sampling Estimation and Set-Aside Calculation

State Agency Comments

The State agency said that we had made significant sampling and extrapolation errors: (1) the
standard deviation of the point estimate was so wide that it made the estimate of ineligible
payments virtually useless and (2) our calculation of the set-aside amount erroneously relied on
the point estimate of questioned claims rather than the lower limit. The State agency calculated a
set-aside amount of $13,127,923 at the lower limit.

Office of Inspector General Response

Our sampling and estimation methodology is statistically valid. There is no fixed “acceptable
level of precision” that makes a sample valid. The sampling variation is included in the
calculations of the confidence interval. If there were better precision, the lower limit of the
confidence interval would increase. Any lack of precision means that the amount of the lower
limit is less than it would be if the estimate were more precise. This lower limit works in favor
of the State agency.

The State agency is incorrect in stating that the use of the point estimate miscalculates the
estimate of the set-aside amount. The point estimate is a valid estimate of the total value of
claims that included ineligible costs and for which the State agency did not provide information
about the services included in the contractors’ per diem rates and their relative costs. In
Appendix C, we reported the lower limit, the point estimate, and the upper limit. There is no
requirement to report only the lower limit. Using the 90-percent confidence interval, we are
95-percent confident that the actual value of claims with ineligible costs is greater than the lower
limit. By providing the point estimate and the confidence interval, the values used in our report
are balanced and reliable.

Documentation for Sampled Claims

State Agency Comments

The State agency said that it is wholly improper to recommend disallowances based solely on a
lack of documentation. The State agency also said that it provided documentation during our
audit to support the sampled claims. The State agency included copies of the previously
submitted documentation for eight questioned claims with its comments.




                                                 13
Office of Inspector General Response

We did not question the eight claims based solely on a lack of documentation. Rather, we
determined that the documentation did not support claims for Federal reimbursement. For seven
of the eight claims, the State agency provided court orders for the commitment of delinquent
children as documentation that remaining in the home was contrary to the welfare of the
children. The court orders recommended treatment and rehabilitation but did not state that
remaining in the home was contrary to the welfare of the children. Three of the claims were also
questioned for other reasons. If we had not questioned the claims, we would have set them aside
for ACF to determine the amount attributable to the unallowable treatment and rehabilitation
services.

For the eighth claim, the State agency provided a family information form indicating that the
mother was unemployed as evidence that the child met Title IV-E income requirements.
However, the form showed that the nonresident father paid the rent and that the family did not
receive Temporary Assistance for Needy Families or food stamps. The form also showed that no
interview of the family was conducted and included no evidence of income, no record of assets,
and no indication of the value of the father’s contribution to the household. This child also did
not meet Title IV-E age requirements.




                                               14
APPENDIXES
                         APPENDIX A: PREVIOUSLY ISSUED REPORTS ON
                             PENNSYLVANIA’S TITLE IV-E CLAIMS 1


Costs Claimed Under Title IV-E Foster Care Program for Children in Castille Contracted
Detention Facilities From October 1, 1997, to September 30, 2002 (A-03-04-00586, issued
October 3, 2005).

Claims Paid Under the Title IV-E Foster Care Program for Children in Castille Contracted
Detention Facilities From October 1, 1997, to September 30, 2002 (A-03-05-00550, issued
September 20, 2007).

Philadelphia County’s Title IV-E Claims for Children for Whom the Contractual Per Diem Rate
for Foster Care Services Exceeded $300 From October 1997 Through September 2002
(A-03-06-00564, issued December 13, 2007).

Philadelphia County’s Title IV-E Claims Based on Contractual Per Diem Rates of $300 or Less
for Foster Care Services From October 1997 Through September 2002 (A-03-07-00560, issued
May 22, 2008).

Pennsylvania’s Title IV-E Claims on Behalf of Children Who Exceeded the Maximum Eligible
Age From October 1997 Through September 2002 (A-03-08-00553, issued November 9, 2009).




1
    These reports are available at http://oig.hhs.gov.
                       APPENDIX B: SAMPLING METHODOLOGY

SAMPLING FRAME

Our sampling frame consisted of 126,283 claim lines paid from October 1997 through September
2002 on behalf of foster care children in Allegheny County. The county’s Department of Human
Services provided detailed lists in support of 33 summary invoices for this period. Each claim
line on the detailed lists showed a child’s name, the claim period, and the costs claimed for the
child.

SAMPLE UNIT

The sample unit was an individual claim line listed for one of the 33 summary invoices.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected for review a sample of 100 claim lines.

SOURCE OF RANDOM NUMBERS

We used an approved Office of Inspector General, Office of Audit Services, statistical software
package to generate random numbers for selecting the sampled claim lines.

METHOD OF SELECTING SAMPLE ITEMS

We sequentially numbered the claim lines provided for the 33 summary invoices. After
generating 100 random numbers between 1 and 126,283, we selected the corresponding claim
lines.

ESTIMATION METHODOLGY

We used the Office of Inspector General, Office of Audit Services, statistical software to
estimate the unallowable and potentially unallowable costs in the sampling frame.
                        APPENDIX C: SAMPLE RESULTS AND ESTIMATES

UNALLOWABLE COSTS

                                                   Sample Results

                              Value of                                                              Value of
       Number of                                                Value of
                              Sampling                                          Number of          Unallowable
      Claim Lines                                 Sample         Sample
                               Frame                                            Claim Lines           Costs
      in Sampling                                   Size        (Federal
                              (Federal                                          With Errors         (Federal
         Frame                                                   Share)
                               Share)                                                                Share)
         126,283             $89,219,781            100          $64,363              23 1           $22,804


                            Estimates of Unallowable Costs (Federal Share)
                         (Limits Calculated for a 90-Percent Confidence Interval)

                             Point estimate                      $28,796,994
                             Upper limit                          40,309,750
                             Lower limit                          17,284,239


POTENTIALLY UNALLOWABLE COSTS

                                                   Sample Results

                                                                                                     Value of
                              Value of
       Number of                                                Value of                            Potentially
                              Sampling                                         Number of
      Claim Lines                                Sample          Sample                            Unallowable
                               Frame                                           Claim Lines
      in Sampling                                 Size          (Federal                               Costs
                              (Federal                                         With Errors
         Frame                                                   Share)                              (Federal
                               Share)
                                                                                                      Share)
         126,283            $89,219,781             100         $64,363               15              $13,497


                       Estimates of Potentially Unallowable Costs (Federal Share)
                         (Limits Calculated for a 90-Percent Confidence Interval)

                             Point estimate                      $17,044,076
                             Upper limit                          26,072,288
                             Lower limit                           8,015,863




1
    Although 38 claims had errors, we were unable to quantify the errors for 15 claims because of data limitations.
                                                                           Page 1 of 3


      APPENDIX D: DEFICIENCIES OF EACH SAMPLED CLAIM

   Costs Claimed for Services Provided to Ineligible Children
   1. Remaining in the Home Not Contrary to the Welfare of the Child
   2. Income Requirements Not Met
   3. Reasonable Efforts Not Made To Keep Child in the Home
   4. Age Requirements Not Met

   Costs Claimed for Ineligible Services
   5. Services Included in Per Diem Rates
   6. Sundry Services

Office of Inspector General Review Determinations on the 100 Sampled Claims

                                                                  Number of
 Sample       1        2        3           4    5        6       Deficiencies
    1                                                                  0
    2                                                                  0
    3                                                                  0
    4                                                                  0
    5         X                 X                                      2
    6         X        X        X                                      3
    7                                                                  0
    8                                                                  0
    9                                                                  0
   10                                                                  0
   11         X        X                         X                     3
   12         X                                  X                     2
   13         X        X        X                                      3
   14                                                                  0
   15                                                                  0
   16                                                                  0
   17                                                                  0
   18                                                                  0
   19                                            X                     1
   20                  X                                               1
   21                                                                  0
   22                                                                  0
   23         X                 X                                      2
   24                                                                  0
   25                                                                  0
   26                  X                                               1
   27                                            X                     1
   28                                                                  0
                                          Page 2 of 3


                                 Number of
Sample   1   2   3   4   5   6   Deficiencies
  29                                  0
  30                                  0
  31                                  0
  32                                  0
  33     X       X                    2
  34                                  0
  35                                  0
  36                                  0
  37                                  0
  38                                  0
  39         X           X            2
  40                     X            1
  41     X       X                    2
  42                                  0
  43         X       X                2
  44                                  0
  45                                  0
  46                                  0
  47                         X        1
  48                                  0
  49                                  0
  50                                  0
  51                                  0
  52                                  0
  53                                  0
  54                     X            1
  55                                  0
  56         X                        1
  57         X                        1
  58     X           X   X            3
  59     X               X            2
  60     X               X            2
  61     X               X            2
  62                                  0
  63                                  0
  64                                  0
  65                                  0
  66                     X            1
  67                     X            1
  68     X   X   X       X            4
  69                                  0
  70                     X            1
  71                                  0
                                             Page 3 of 3


                                    Number of
Sample   1    2    3   4   5    6   Deficiencies
   72                                    0
   73    X         X                     2
   74                      X             1
   75                           X        1
   76         X        X   X             3
   77    X         X                     2
   78                                    0
   79                           X        1
   80                                    0
   81                                    0
   82                                    0
   83                                    0
   84    X             X   X             3
   85                      X             1
   86                      X             1
   87                                    0
   88                           X        1
   89                                    0
   90                                    0
   91                                    0
   92                                    0
   93                                    0
   94                                    0
   95                                    0
   96                      X             1
   97                                    0
   98                                    0
   99                                    0
  100                                    0
 Total   16   11   9   4   21   4
                                                                                            Page 1 of 30
                             APPENDIX E: STATE AGENCY COMMENTS

HANGLEY 

ARONCHICK 

SEGAL 
                                                                             One Logan Square




M~M~'~:_
                                                                                    27th Roor
                                                                                    Philadelphia. PA 19103-6933
                                                                                    215_S68_o300/facslmlle

                                                                                    www.hangley.com

Mark A. Aronchick                                                                   PHILADElPHIA, PA 

Direct Dial: 215-496.7002 

                                                                                    CHERRY HILL, Nt
E·mail: maronchick@hanglev.!;~!!!
                                                                                    HARRISBURG, PA

                                                                                    NORRISTOWN, PA
                                                     September 10, 2010 

HAND DELIVERY 

Stephen Virbitsky 

Regional Inspector General for Audit Services 

United States Department of Health and Human Services 

Office of Inspector General . 

Office of Audit Services 

150 South Independence Mall West 

Philadelphia, PA 19106-3499 


                   Re: 	    Draft Report Number A-03-08-o0554/Audit of Allegheny
                            County Title IV-E Foster Care Claims from October 1997
                            through September 2002

Dear Mr. Virbitsky:

                   I am writing on behalf of the Commonwealth of Pennsylvania, Department of

Public Welfare, in response to the July 12,2010 draft report of the Office of Inspector General

("OIG") of the Department of Health and Human Services ("HHS"), titled "Audit of Allegheny

County Title IV-E Foster Care Claims From October 1997 through September 2002" (the

"Draft Report") (Exhibit A, attached),'


                   In the Draft Report, OIG recommends that Pennsylvania "refund" to the

federal government $17,284,239 in allegedly improper foster care maintenance placement

costs, plus an additional $11,022,902 in what OIG characterizes as "associated



         1   Exhibits A-Q to this response are provided in the attached Appendix.
                                                                                                        Page 20[30




Stephen Virbitsky
Regional Inspector General for Audit Services
Septem ber 10, 2010
Page 2


administrative costs," for a total "refund" of $28,307,141. This covers a period stretching

back more than twelve years, from October 1997 through September 2002. (Draft Report at

ii.) OIG further recommends that Pennsylvania "work with" the Administration for Children

and Families ("ACF") "to determine the allowability of $27,913,816 related to claims that

included both allowable and unallowable services," and "work with ACF to identify and

resolve any unallowable claims for maintenance payments made after September 2002 and

refund the appropriate amount." (ld.)

                All of OIG's recommendations are without merit and contrary to law. As

explained in my letters responding to previous OIG draft and final reports concerning other

phases of this mUlti-phase audit of Pennsylvania's TitlelV-E claims (the "Audit"),2 and as

further explained below, Pennsylvania opposes the entire OIG Audit, including any

recommendations stemming from it, forthe following reasons:

                 •	      OIG has singled out Pennsylvania by conducting this Audit of
                         unprecedented size and scope without an adequate basis and in
                         contravention of federal law;

                 •	      By conducting the Audit, OIG is wrongfully assuming ACF's program
                         operating responsibilities in violation of the Inspector GeneralAct of
                         197 8, 5 U.S.c. App. 3;




         , Because Pennsylvania opposes OIG's recommendations in the Draft Report for many ofthe same
reasons it has opposed OIG's recommendations in its previous draft and final reports, this letter repeats many
of the points I made in my letters of April 16, 2007, January 31,2008, April 21, 2008, October 20,2008, July 15,
2009, and December 9,2009. Those letters (without exhibits) are attached to and incorporated into this letter
as Exhib its B, C, D, E, F, and G respectively.
                                                                                                      Page 3 of 30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10, 2010
Page 3


                  •	       The Audit improperly focuses on past practices rather than
                           Pennsylvania's current child welfare system; and

                  •	       GIG has not provided an appropriate factual, mathematical or legal
                           basis for its recommendations that Pennsylvania return millions of
                           dollars in maintenance and "associated administrative costs" to the
                           federal government.

Based on these critical problems with the Audit, Pennsylvania requests that OJG withdraw

the Draft Report, including the recommendations in it, and terminate all aspects of the

Audit.

         A. 	     OIG Has Unlawfully And Without Any Proper Basis Singled Out
                  Pennsylvanja I n This Unprecedented Audit

                   By letter dated November 19. 2003. OIG first announced its intention to

conduct an audit "of the Commonwealth of Pennsylvania's claims for payments made under

the Title IV-E Foster Care Program for Federal Fiscal Years 1998 through 2002." (See

11/19/03 Letter from Stephen Virbitsky to Michael L. Stauffer. attached as Exhibit H.) In

accordance with that notice, in September 2004, OIG began auditing the entirety of

Pennsylvania's Title IV-E claims paid between 1997 and 2002. OIG has to date issued final

audit reports for five phases of the audit; they have resulted in recommendations that

Pennsylvania repay tens of millions of dollars of current public funds necessary to provide

critical services required today by the needy children of Pennsylvania .3




         3   By letters dated August 20,2010, ACF accepted OIG's recommendations as to four of the phases .
                                                                                          Page 40[30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10,2010
Page 4


              The Audit is both Draconian and unprecedented. Pennsylvania stands alone

among the fifty states in being subjected to such a far-reaching, overly-detailed, multi-year

review of its Title IV-E claims. OIG's work plans and the documents it provided in response

to Pennsylvania's prior FOIA requests do not identify any Title IV-E audit encompassing the

type of broad review it is performing in Pennsylvania. In its responses to Pennsylvania's

comments on this point in previous phases bfthis Audit, OIG also was not able to identify

any other state being subjected to this type of extensive multi-phase audit concerning

regularly-filed foster care maintenance claims. (See OIG's September 20,2007 Report No_

A-03-0S-00SSo, titled "Claims Paid Under the Title IV-E Foster Care Program for Children in

Castille Contracted Detention Facilities from October 1,1997 to September 30, 2002"

("September 20, 2007 Final Report"), at 12; OIG's May 22, 2008 Report No. A-03-07-00S60,

titled "Philadelphia County's Title IV-E Claims Based on Contractual Per Diem Rates of $300

or Less for Foster Care Services from October 1997 Through September 2002" ("May 22,

2008 Final Report"), at 12.) At the same time, neither OIG nor ACF has provided    any

evidence suggesting that Pennsylvania's Title IV-E program had a significantly greater error

rate than that of any other state program.

              OIG has previously denied that it has singled out Pennsylvania by claiming

that Pennsylvania is simply the first state selected as part of "a multistate review of juvenile

justice placement costs claimed underTitle IV-~." (See September 20, 2007 Final Report at

12.). However; the instant Audit is indisputably not limited to the "juvenile justice

placement costs" referred to by OIG. Indeed, OIG has expressly acknowledged that even
                                                                                           Page 5 of 30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10, 2010
Page 5


though it originally intended to audit only juvenile justice related costs, ACF requested an

audit covering the entirety of Pennsylvania's Title IV-E claims. (See 4/5/2000 Letter from

David M. Long to John H. Bungo, attached as Exhibit I.) Because DIG ultimately granted

ACF's request by conducting the instant Audit, the purported eXistence of a "multistate

review of juvenile justice placement costs" in no way explains why Pennsylvania alone is

being subjected to an all-encompassing audit of the entirety of its Title IV-E claims   over a

five-year period beginning so long ago. In addition, DIG has failed to identify one other

state that is facing even the more limited   "review of juvenile justice placement costs" - let

alone the type of all-encompassing audit of all Title IV-E claims   over a mUlti-year period that

Pennsylvania faces here.

              Although DIG also has suggested that it is not unfairly singling out

Pennsylvania because it conducted "multiyear audits of comparable scope ... of Medicaid

school-based services and Medicaid costs ... in California," the argument misses the point

(See November 9, 2009 Final Report at 5, attached as Exhibit J.) This summary allegation of

a broad Medicaid audit - having nothing to do with Title IV-E and with no indication of what

triggered it - is hardly a rebuttal to Pennsylvania's claim that it has been arbitrarily singled

out for an all encompassing multiyear Title IV-E audit. The fact remains that DIG cannot

point to any Title IV-E audit comparable to the one being conducted in Pennsylvania.

               DIG has further stated that it initiated the Audit because of a general concern

over Pennsylvania's increased number of claims and because of "an ACF probe sample of

50 Title IV-E statewide foster care cases conducted in 1998, of which 44 cases had multiple
                                                                                           Page 60[30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10,2010
Page 6


errors." (See 3/9/04 Letter from Stephen Virbitsky to Michael L. Stauffer, attached as

Exhibit K.) However, OIG's purported reliance upon a small and statistically unreliable

sample of unique claims submitted in 1998 as the basis for launching a comprehensive

audit of aJlTitle IV-E claims submitted by Pennsylvania from 1997 until 2002 lacks

foundation and makes no sense.

              The 1998 probe sample referred to by OIG as the basis forthe Audit does not

remotely justify the scope of the present audit. Unlike this audit; the probe sample did not

involve Pennsylvania's general Title IV-E population. As expressly acknowledged by ACF

Regional Administrator David   J.   Lett, the sample focused only on a retroactive claim for a

narrow group of "children who were ineligible under [Title] IV-A Emergency Assistance" by

virtue of the juvenile justice restrictions belatedly imposed on that program and who were

"redetermined eligible by the Department of Public Welfare under the Foster Care and

Adoption Assistance Program ... [under] Title IV-E...." (See 2/10/99 Letter from David       J.
Lett to Feather O. Houstoun, attached as Exhibit L.) That these highly unique claims-

involving a limited group of children who were reclassified after a change in federal law ­

were found to have certain errors is neither surprising nor a reason to question the

operation of Pennsylvania's overall Title IV-E program. It provides no legitimate justification

for this highly burdensome and unprecedented Audit, an audit far outside the parameters of

the normal Title IV-E review process.

              Underscoring the singling out of Pennsylvania is the fact that between the

1998 submission of the probe sample that was the purported trigger of the Audit and OIG's
                                                                                        Page 70[30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10, 2010
Page 7


2003 initiation of the Audit, Pennsylvania regularly submitted quarterly claim reports to ACF

and ACF paid each such claim. If ACF had a concern about any aspect of Pennsylvania's

Title IV-E claims at that time - either because of the probe sample results, the amount of the

claims, or for any other legitimate reason - it could have requested additional information,

conducted a financial review, or disallowed such claims. See, e.g., 42 U.S.c. § 674(b)(4).

Instead, after presumably reviewing all claims as they were submitted during this period,

ACF paid Pennsylvania's claims in full. For OIG now - as long as twelve years later - to

single out Pennsylvania by subjecting these very same Title IV-E claims to an extensive

federal audit based exclusively on factors of which ACF was well aware at the time it

approved such claims is arbitrary and capricious and represents unlawful government

action.

              OIG's audit of these dated claims also runs afoul of the concerns that led

Congress to enact the 1994 amendments to the Social Security Act concerning review of

State-submitted claims. Before the enactment of the amendments (codified at 42 U.s.c.

§ 1320a-2a), states were subjected to a fragmented and inconsistent system offinancial

reviews and audits of their Title IV-E programs that improperly focused on documentation

for previously submitted claims rather than on the quality of child care. See, e.g.,

Committee on Ways and Means, U.S. House of Representatives, 2000 Green Book,

Background Material and Data on Programs within the Jurisdiction of the Committee on

Ways and Means (2000) (noting that "child welfare advocates, State and Federal officials,

and Members of Congress" were dissatisfied with the previous review process because HHS
                                                                                                     Page 8 of 30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10, 2010
Page 8


was performing the reviews in an untimely manner, because HHS was relying too heavily on

documentation that was outside the control of the States, and because the review process

did little to address the quality of care for children); see a/50 63 FR 5°058-01.4 In response

to these concerns, Congress enacted Section 1320a-2a, which provides that review

processes should focus on improving the quality of State Title IV-E programs rather than

generating refunds to the federal government.

                Inconsistently with that general Congressional intent, OIG recommends in this

multiphase Audit that Pennsylvania be required to repay tens of millions of dollars for

claims submitted up to twelve years earlier under a different state administration, even

though ACF has determined that Pennsylvania's ntle IV-E program has currently been

operating in "substantial compliance" with federal requirements. In September 2004 ­

nearly a year after OIG initiated the current audit - ACF conducted its own review of

Pennsylvania's compliance with Title IV-E eligibility requirements. Pennsylvania passed the

review with flying colors. By letter dated October 19,2004, ACF informed Pennsylvania that

it had achieved substantial compliance (100% eligibility compliance) with Title IV-E program

requirements and would not be subject to another eligibility review until 2007. (See

10/19/04 Letter from David      J.   Lett to Estelle B. Richman, attached as Exhibit M.) And in that



          4 Indeed, before the enactment of 42 U.s.c. § 132oa·2a, OIG authored its own report in which it
criticized the HHS review process and recommended that certain changes (ultimately incorporated into the
statutory amendments) be made. See Office of Inspector General, Department of Health and Human Serv.,
Oversight of State Child Welfare Programs (1994).
                                                                                           Page 90[30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10,2010
Page 9


2007 eligibility review, ACF determined yet again that Pennsylvania was in substantial

compliance with Title IV-E requirements. (See 4/23/09 Letter from Joseph J. Bock to Estelle

B. Richman, attached as Exhibit N.) Thus, there was no legitimate basis for OIG or ACF to

have believed that Pennsylvania's Title IV-E program was failing to comply with federal law.

               In light of the above circumstances, it is plain that, notwithstanding OIG's

protestations to the contrary, OIG has singled out Pennsylvania for selective, arbitrary and

unlawful treatment. See, e.g., Burlington N. and Santa Fe Ry. Co. v. Surface Transp. Bd.,

403 F.3d 771, 777 (D.C. Cir. 2005) ("Where an agency applies different standards to similarly

situated entities and fails to support this disparate treatment with a reasoned explanation

and substantial evidence in the record, its action is arbitrary and capricious and cannot be

upheld."); Petroleum Communications, fnc. v. F.C.C., 22 F.3d 1164, 1172 (D.C. Cir. 1994) ("We

have long held that an agency must provide adequate explanation before it treats similarly

situated parties differently."). Neither OIG nor ACF has provided any evidence suggesting

that Pennsylvania's Title IV-E program had a significantly greater error rate than was present

in any other State program; yet OIG is subjecting only Pennsylvania - without justification ­

to an intensive multi -phase audit of its regularly-filed Title IV-E maintenance claims over a

five-year period.

               In sum, no basis exists for OIG arbitrarily to subject Pennsylvania to this all-

encompassing multiphase Audit. Forthis reason alone, the Draft Report should be

withdrawn.
                                                                                           Page 10 of 30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10,2010
Page 10


       B. 	   ACF Has Unlawfully Transferred, And OIG Has Unlawfully Assumed, ACF's
              Program Operating Responsibilities

              The Inspector General Act, 5 U.s.c. App. 3 (the "Act") established the Office of

Inspector General in order to facilitate "objective inquiries into bureaucratic waste ... and

mismanagement." NASA v. Fed. Labor Relations Auth., 527 U.S. 229, 240 (1999) (emphasis

added). By creating OIG, Congress also intended "to consolidate existing auditing and

investigative resources to more effectively combat fraud, abuse, waste and mismanagement

in the programs and operations of [various executive] departments and agencies." S. Rep.

No. 1071, 95th Cong., 2d Sess. 1 (1978), reprinted in 1978 U.S.C.C.A.N. 2676, 2676.

However, while Congress gave OIG broad audit and investigative authority to carry out its

oversight function, see 5 U.S.C.App. 3 § 6(a), the Act explicitly requires OIG to remain

"independent and objective" from the federal agencies it oversees, providing that Inspector

Generals "shall be appointed by the President, by and with the advice and consent of the

Senate, without regard to political affiliation and solely on the basis of integrity and

demonstrated ability in accounting, auditing, financial analysis, law, management analysis,

public administration, or investigations." See id. at 3 § 3(a).

              To ensure that OIG retains its critical independence, the Act expressly

prohibits OIG from assuming "program operating responsibilities." 5 U.s.c. App. 3

§ 9(a) (2). Program operating responsibilities are "those activities which are central to an

agency's statutory mission [as distinguished from] those which are purely internal or

administrative." United States v. Hunton & Williams, 952 F. Supp. 843, 850 (D.D.C. 1997).
                                                                                        Page 11 0[30




Stephen Virbitsky
Regional Inspector General for Audit Services
Septembeno, 2010
Page 11


               Federal courts have regularly recognized the importance of that distinction.

They have consistently held that OIG is not authorized to conduct "regulatory compliance

audits" that do not further the oversight purposes set forth in the Act but, instead, are of the

type within the responsibilities of the federal agency itself. See, e.g., Truckers United for

Safety v. Mead, 251 F.3d 183 (D.C. Cir. 2001); Burlington N. R.R. Co. v. Office of Inspector

Gen. R.R. Ret. Bd., 983 F.2d 631 (5th Cir. 1993). For instance, in Truckers United for Safety,

the United States Court of Appeals forthe D.C. Circuit held that OIG had acted outside the

scope of its authority in conducting investigations of motor carriers' compliance with federal

safety regulations. 251 F.3d at 189. In so ruling, the Court concluded that "Congress did not

intend to grant [OIG] authority to conduct investigations constituting an integral part of DOT

programs" and that OIG "is not authorized to conduct investigations as part of enforcing

motor carrier safety regulations - a role which is central to the basic operations of the

agency." Id.

               Similarly, in Burlington Northern, the United States Court of Appeals forthe

Fifth Circuit concluded that OIG lacked statutory authority to conduct "regulatory

compliance investigations or audits," which it defined as "those investigations or audits

which are most appropriately viewed as being within the authority of the agency itself."



               [A]s a general rule, when a regulatory statute makes a federal
               agency responsible for ensuring compliance with its provisions,
               the Inspector General of that agency will lack the authority to
               make investigations or conduct audits which are designed to
               carry out that function directly.
                                                                                          Page 12 of 30




Stephen Virbitsky
Regional Inspector General for Audit Services
Septem ber 10, 2010
Page 12


{d. The Court reasoned that if an Inspector General were to assume an agency's regulatory

compliance function, "his independence and objectiveness - qualities that Congress has

expressly recognized are essential to the function of combating fraud, abuse, waste, and

mismanagement - would ... be compromised." {d.


                OIG's Audit of all of Pennsylvania's Title IV-E claims over a five-year period

falls squarely within the bounds of a prohibited regulatory compliance audit. OIG is not

auditing Pennsylvania's claims "for the purpose of evaluating [ACF's] programs in terms of

their management, efficiency, rate of error, and vulnerability to fraud, abuses, and other

problems," Winters Ranch P'ship v. Viadero, 123 F.3d 327, 333 (5th Cir. 1997); indeed, OIG is

not focused at all on ACF's performance orthe ongoing operation of the federal Title IV-E

program. Instead, the Audit and its associated Final Reports focus solely on whether

Pennsylvania strictly complied with all of the statutory, regulatory, and ACF-imposed

requirements in its submission and documentation of claims underTitle IV-E of the Social

Security Act.


                The issue of Pennsylvania's compliance with the plethora offederal statutory

and regulatory claiming requirements is not a proper focus of OIG's oversight

responsibilities; the Social Security Act and federal regulations place that program

responsibility squarely on the shoulders of HHS. See, e.g., 42 U.s.c. § 674(b). Pursuant to

those authorities, ACF is responsible for reviewing all Title IV-E claim submissions and

deferring or disallowing any claims of questionable allowability. See id.; 45 C.F.R.
                                                                                           Page 13 0[30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10,2010
Page 13


§ 201.15(C). ACF is also responsible for conducting, when necessary, additional reviews of a

state's Title IV-E programs and submissions, including an examination of the "case records

of individual recipients" to ensure that "State agenc ies are adhering to Federal

requirements ...." Id. § 201.10(a); see also id. §§ 1355.32, 1355.33. Thus, just as the courts

determined with respect to the OIG audits in the Truckers United for Safety and Burlington

Northern decisions, this Audit falls within the statutory and regulatory responsibilities of

ACF, and cannot be conducted by OIG.


              Separately. OIG also lacked the requisite "independence and objectiveness"

in deciding to initiate and conduct this oppressive audit of Pennsylvania's Title IV-E claims.

By its own admission. OIG did not independently decide to initiate the audit; it acceded to a

request from ACF's Regional Office staff that it do so. OIG itself has stated that it decided to

audit Pennsylvania because ACF - notOIG - was purportedly concerned that errors ACF

identified in the 1998 probe sample of unique reclassified children might also have

somehow occurred in later periods in the general population ofTitle IV-E children. (See

3/9/04 Letter from Mr. Virbitsky to Mr. Stauffer.) Initiating an audit in response to an

agency request hardly qualifies as "independent and objective" oversight. See, e.g., U.S. v.

Montgomery County Crisis Ctr., 676 F. Supp. 98. 99 (D. Md. 1987) (finding OIG's issuance of

subpoena to be improper because, among other reasons, it "did not initiate the
                                                                                                           Page 14 of 30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10, 2010
Page 14


investigation on its own but ... at the behest of the [Naval Investigation Service] on a

matter well outside [OIG's] areas of regular responsibility,,).5


                 In its May 22,2008 and November 9,2009 Final Reports on earlier phases of

this Audit, OIG acknowledged that it may be legally prohibited from conducting "regulatory"

audits that fall within the responsibilities of the program agency, but claimed thatthis Audit

is not such an audit. (May 22, 2008 Final Report at 12; Nov. 9, 2009 Final Report at 6.)

Rather, OIG characterized this Audit as simply a "compliance audit designed to identify the

improper expenditure offederal dollars for the Pennsylvania foster care program." (May 22,

2008 Final Report at 12; Nov. 9, 2009 Final Report at 6.) OIG additionally contended that it

has not unlawfully assumed ACF's program operating responsibilities because ACF has

purportedly not relinquished its own responsibilities forthat function. (May 22,2008 Final

Report at 13; Nov. 9, 2009 Final Report at 6.) OIG is wrong on both counts.


                 First, OIG's use of semantics to justify this Audit as a "compliance" audit, as

opposed to a "regulatory compliance audit," should not be permitted. As already

explained, the Audit involves an examination of whether Pennsylvania (not ACF) strictly

complied with all of the statutory, regulatory, and ACF-imposed requirements on the

         5 DIG's previous attempts to distinguish Montgomery County Crisis Center because it dealt with a

"security issue" "outside the IG's area of regular responsibility," are unavailing. Final Report at 6. First, quite
apart from the security aspect of t~e case, the Montgomery County Crisis Center court was plainly concerned
that "the Inspector General did not initiate the investigation on his own but acted at the behest of NIS."
676 F. Supp. at 99. And, second, as discussed above, a comprehensive evaluation of Pennsylvania's (rather
than ACF's) compliance with the requirements ofTitle IV-E and its associated regulations is, as with the
conduct in Montgomery County Crisis Center, "well outside the IG's area of regular responsibility."
                                                                                                         Page 15 of 30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10, 2010
Page 15


submission and documentation of its claims during the audit period. Additionally.

conducting such an audit is one of the statutory and regulatory "program operating

responsibilities" of ACF - not OIG. See 45 C.F.R. §§ 201.10, 201.15.1355.32,1355.33. OIG's

Audit therefore is an unlawful "regulatory compliance audit" of Pennsylvania - not·simply a

routine "compliance" audit as OIG has attempted to characterize it. See Burlington

Northern, 983 F.2d at 642.


                 Second and relatedly, ACF also has plainly relinquished to QIG its operating

responsibilities in conducting this Audit. As noted above, between the 1998 submission of

the probe sample and OIG's 2003 initiation of the Audit, Pennsylvania regularly submitte.d

quarterly claim reports to ACF. ACF could have, but did not, request additional information,

conduct a financial review, or disallow such claims. See, e.g., 42 U.s.c. § 674(b)(4); 45

C.F.R. § 201.10. Instead, after presumably reviewing all the claims, ACF paid them in full. It

was only later that ACF decided that these claims should be reviewed yet again and directed

OIG to take on that task even though it was ACF's responsibility to do so. See 45 C.F.R.

§§ 201.10, 201.15, 1355.32, 1355.33. Therefore, OIG is undeniably performing program

responsibilities of ACF in conducting this audit of claims that ACF has already reviewed and

that it is responsible for re-reviewing as well when necessary; it makes no difference that

ACF may have retained its responsibilities to review other unrelated claims. 6



 ,        6 DIG's previous reliance on Winters Ranch P'ship v. Vidaso, 123 F.3d 327. 334 (5th Cir. 1987). also is
un justified. IIi Winters, the Court held, unremarkably, that the Inspector General's use of the same
                                                                                                     (continued ...)
                                                                                                      Page 16 of 30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10,2010
Page 16


                  OIG has acted as an arm of ACF throughout this process. OIG initiated the

broad audit not of its own accord but at ACF's request; it has undertaken ACF's statutory

responsibility for ensuring Pennsylvania's compliance with regulatory requirements by

conducting a massive review to determine whether Pennsylvania (not ACF) complied with all

of the statutory and regulatory requirements for claiming federal participation under the

Social Security Act; and it engaged in a "regulatory compliance audit" that is not an

appropriate component of OIG's oversight responsibility but, instead, is a central

responsibility of ACF itself. Under such circumstances, it is clear that ACF has improperly

transferred, and OIG has wrongfully assumed, program operating responsibilities in

violation of Section 9 (a) (2) of the Inspector General Act. Forthat reason alone, OI.G lacks

statutory authority to conduct the Audit; the Draft Report should be withdrawn.




(continued ...)

investigatory techniques as those used by the agency in question did not constitute a transfer of "program
operating responsibilities"; the issue here of course has nothing to do with "investigatory techniques." And
while, in dictum, Winters noted that "in order for a transfer of function to occur, the agency would have to
relinquish its own performance of that function," 123 F.3d at 334, here, ACF, in paying the claims without
further detailed inquiry, "relinquish[ed] performance of that function [of auditing]" in requesting DIG to
conduct this Audit.
                                                                                        Page 170[30




Stephen Virbitsky
Regional Inspector General for Audit Services
Septem ber 10, 2010
Page 17


       C. 	   The Audit Improperly Focuses On Practices From Many Years Ago Rather
              Than On Current Practices

              The Audit is also improper in that it relates to claims submitted and paid

anywhere between seven and twelve years ago. Indeed, both Congress and OIG itself have

recognized that such an outdated audit is unhelpful and should not be conducted.


              The Title IV-E review process has been a concern of the federal government for

many years. In 1998, Congress imposed a moratorium on HHS activities, prohibiting it from

collecting any penalties from states based on its reviews because of critical procedural and

pragmatic problems with the reviews, largely related to theirtiming. See Committee on

Ways and Means, U.s. House of Representatives, 2000 Green Book: Background Material

and Data on Programs within the Jurisdiction of the Committee on Ways and Means (2000).

Specifically, Congress, child welfare advocates, and state and federal officials were

concerned that "[r]eviews were conducted retrospectively, sometimes for fiscal years that

had long passed, so that current practices were not examined ." Id. This problem was

exacerbated by "the late release of final reports by [HHS], so their findings and

recommendations were sometimes irrelevant by the time they were issued." {d.

Furthermore, the reviews were "seen as adversarial and punitive, ratherthan collaborative

and potentially helpful." {d. They seemed to focus on generating refunds forthe federaL

government, ratherthan improving the quality of care for children in need. {d.; see also ·

Office of Inspector General, Dep't of Health and Human Serv., Oversight of State Child
                                                                                        Page 18 of 30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10, 2010
Page 18


Welfare Programs, i (1994) (Congress, state officials and child welfare advocates were

concerned that "the reviews elevate process issues over quality of services").


              At about the same time that these concerns were being voiced, OIG

conducted an examination of HHS's Title IV-E review system, and concluded that the review

procedures were, for the most part, inadequate because they were untimely. OIG reported:

urAls our examination of 69 review reports shows, reviews have taken place and reports

have been released long after the fiscal year under review was over. On average, Title IV-E

reviews were released overtwo and a half years afterthe end of the fiscal year under

review ...." OIG, Oversight of State Child Welfare Programs, 14. OIG also echoed

Congress's concern with HHS's reports being irrelevant by the time they were issued and

"windows of opportunity for change [beingl closed by the time the reports are released." {d.

at 14-15. Given these problems, OIG recommended that HHS make several changes,

including improving the "timeliness of reporting to States the results of Federal reviews."

{d. at 27.

              In 1994. as a result of all these concerns, Congress enacted amendments to

the Social Security Act that required HHS to enact regulations for reviewing states' Title IV-E

programs. See 42 U.s.c. § 1320a-2a. Among other things. the amendments direct that the

new regulations include a timetable of the review process to ensure that states are subject

to "timely review[sl." Id. § 1320a-2a(b)(1)(B). The amendments also prohibit HHS from

assessing liability on a state for past-submitted claims without first allowing the state the
                                                                                                      Page 19 of 30




  Stephen Virbitsky 

  Regional Inspector General for Audit Services 

  September 10,2010 

- Page 19


 opportunity to correct any errors through a program improvement plan. !d. § 1320a­

 2a (b) (3) (B) . 



                      This Audit is precisely the type of Title IV-E review that Congress was

 concerned about and trying to avoid; it concerns claims related to long past fiscal years and

 makes recommendations that are no longer relevant. Perhaps most importantly, its focus is

 on obtaining millions of dollars in refunds that will place at risk the Commonwealth's

 current child welfare programs - programs that ACF determined were in substantial

 compliance with ACF's regulations and rules following the 2004 and 2007 reviews it

 conducted - rather than on improving the quality of care needed today for the vulnerable

 children in those programs. (See 10/19/04 Letterfrom Mr. Lett to Ms. Richman; 4/23/09

 Letter from Mr. Bock to Ms. Richman.) Although the statutory amendments and HHS's

 regulations based on those amendments do not explicitly apply to audits conducted by OIG,

 those amendments and regulations are rendered meaningless if HHS can evade them by

 simply asking OIG to conduct retrospective audits of claims made many years ago which

 focus on process issues instead of the quality of child care services.'




         7 OIG has previously responded to DPW's concerns on this point by referencing the statement by the

 Department of Appeals Board (DAB) that § 1320a-2A "does not apply to reviews of past maintenance
 payments for which a state had claimed [federal financial participation]." New Jersey Department of Human
 Services, DAB No. 1787, page 4 (2001) . The. statement, however, does not question the validity or importance
 of Congress' concern with audits related to long past years. And it is noteworthy that the statute nowhere
 makes a distinction between past and future payments.
                                                                                                       Page 200[30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10,2010
Page 20


                 Separately, OIG's own guidelines also strongly suggest that it should not

conduct audits of aged claims. Those guidelines clearly set forth a limited retention period

of three years from the date the claim was made. See HHS Grants Administrative Manual

§ 74.53; 45 C.F.R. § 74.53. And, in the March 9, 2004 letter from Mr. Virbitsky to Mr. Stauffer

(Exhibit K, attached), OIG itself acknowledged that it generally limits its work to the federal.

retention period. With the Audit having been initiated on November 19.2003. these

guidelines would therefore dictate that no claims made before November 19, 2000 should
                                        s
.have been audited or disallowed.


                 Although OIG has claimed in previous correspondence that the retention

period should be extended in this case because it announced a different audit in 2000 that

should have put Pennsylvania on notice to retain its records from 1997 onward (see 3/9/04

Letter from Mr. Virbitsky to Mr. Stauffer), this claim is unfounded for several reasons. First,

OIG's suggestion that the current Audit is a mere continuation or re-initiation of the audit

that it announced (but never began) in 2000 is belied by OIG's own written

communications. OIG's letter of November 19.2003 announcing the current audit



         8 Pennsylvania has also been unfairly prejudiced by the fact that the audit goes back beyond the
retention period to a time when records were stored in hard copy ratherthan electronic searchable form.
Simply by way of example, the counties had a procedure for issuing credits to Pennsylvania through
"supplemental invoices" in situations in which they belatedly discovered that they had made and were paid
for inappropriate 'claims, e.g., a maintenance claim for a child over 19 years of age. Pennsylvania in turn
issued aggregate credits to ACF for the federal share of inappropriately made claims. Yet, there is no feasible
way so many years later to identify those credits on a child·by-child basis. And, of course, many of the
relevant records reflecting such credits for any given child may well have been destroyed.
                                                                                             Page 21 of 30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10,2010
Page 21


(Exhibit H, attached) is devoid of any reference to the separate audit OIG had announced in

2000. Further, and most strikingly, OIG expressly acknowledged in its letter of March 9,

2004 (Exhibit K, attached) that OIG had announced a "similar audit" in 2000 - not the same

audit that it was now undertaking. OIG never asserted that the current Audit was a mere

continuation of the prior announced audit in any of these early communications; indeed, it

did not take that position until many months later, in response to Pennsylvania's continuing

argument that the Audit should be limited to the three-year retention period.


               Second, even if the current Audit had merely been a continuation of the

separate audit announced in 2000, that fact, standing alone, would be an insufficient basis

upon which to extend the scope of the current Audit beyond claims filed after November 19,

2000. Federal law does not require a State to retain records beyond the three-year period

simply upon a threat of litigation, review, or audit; that obligation is triggered only if

litigation, review, or audit has "started" during the retention period. See 45 C.F.R.

§ 74.53(b)(1) ("If any litigation, claim, financial management review, or audit is started

'3efore the expiration of the 3-year period, the records shall be retained until all litigation,

claims or audit findings involving the records have been resolved and final action taken.").


               OIG never took any steps to "start" the audit it announced in March 2000.

OIG never held an entrance conference; Pennsylvania never opened its books and records

for OIG to review; and OIG never conducted any type of auditing analysis. Thus, OIG's mere

announcement of an audit that it never began cannot allow it to review claims submitted
                                                                                                    Page 220[30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10, 2010
Page 22


and paid for in an otherwise unreachable audit period. 9 To conclude otherwise would allow

OIG unilaterally to vitiate the three-year record retention period by simply "announcing"

audits that it never conducts.


                Accordingly, to be consistent with its previously expressed positions and

those of Congress concerning the problems with aged audits, and in order to abide by its

own general guidelines and practices concerning the time frame of audits, the Draft Report

should be withdrawn.


        D. 	    OIG's Findings In The Draft Report Lack Foundation

                Separate and apart from the selective and arbitrary nature of the Audit, OIG's

lack of legal authority for conducting it, and its outdated nature, OIG's findings in the Draft

Report lack mathematical, factual and legal support. Forthese additional reasons, detailed

below, the Draft Report should be withdrawn.


                1. 	     OIG Improperly Recommends the Disallowance of Non-Identifiable
                         "Associated Administrative Costs"

                In its Draft Report, OIG recommends that Pennsylvania refund to the federal

government $11,022,902 in "associated administrative costs." (Draft Report at ii, 9.) OIG's




         9 The audit announced in 2000 also included only Federal Fiscal Years 199"8 and 1999 - not Federal

Fiscal Year 2000. (See 3/22/00 Letter from David M. Long to Feather o. Houstoun, attached as Exhibit 0.)
Therefore, any audit of FFY 2000 cannot, under any circumstances, be considered a "continuation" of the prior
announced audit and all disallowances based in whole or part on claims submitted during FFY 2000 must be
removed .
                                                                                           Page 230[30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10,2010
Page 23


manufactured calculation of these unidentified "administrative costs" is fundamentally

unsound and is an inappropriate basis for the disallowance offederal funds.


              First, GIG's assumption - an assumption critical to its argument - that the

disallowances of a certain number of maintenance claims incurred by Pennsylvania should

necessarily result in a proportionate decrease in "associated" administrative costs is

incorrect in light of Pennsylvania's federally-approved administrative cost-claiming

methodology. Like most states, Pennsylvania identifies, measures and allocates

administrative costs for Title IV-E eligible programs through a random moment time study

("RMTS"), which monitors and analyzes the activities of county case workers throughout the

Commonwealth. Each quarter, approximately 3,000 "moment in time" requests are

randomly sent to county case workers throughout     PennsYlva~ia.   Each recipient of an RMTS

request identifies what type of activity he or she is conducting at that precise moment and

documents the activity on the observation form. The Commonwealth then aggregates the

information from all forms, calculates the percentage of time an average Pennsylvania case

worker spends on certain activities, and applies the applicable percentage to each county's

actual administrative cost pool. Pennsylvania has used this administrative cost claiming

methodology, with the knowledge and approval of HHS, since 1989.


              Because Pennsylvania's federally-approved administrative cost claiming

methodology is purely activity-driven (meaning that its result is dependent upon county

caseworkers' average activities rather than calculated on a child-by-child basis), it is
                                                                                         Page 240[30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10, 2010
Page 24


incorrect to assume that a disallowance of a particular child's Title IV-E placement

maintenance claim would necessarily result in any significant reduction - let alone a

proportionate reduction - ofTitle IV-E administrative costs for which Pennsylvania seeks

federal financial participation. Indeed, it is entirely possible that even significant

disallowances of a subset of placement maintenance claims would have little appreciable

effect on the overall administrative claims submitted during the same period. Thus, there is

no factual or legal basis for GIG's unstated (and wholly unsupported) assumption that

disallowances of certain placement maintenance claims, if imposed by ACF, should

necessarily result in additional disallowances of administrative claims.


               In addition, and separately, the formula used by GIG to calculate the alleged

amount of associated administrative costs that should be refunded to the federal

government is unsound. According to footnote 8 in the Draft Report, GIG calculated these

purported administrative costs by "dividing the State agency's total Title IV-E claims for

administrative costs ($593,233.356 (Federal share)) by its total Title IV-E claims for

maintenance costs ($857,954,391 (Federal share)) plus training costs ($72,252,983 (Federal

share)) [and then applying] the resultant percentage to the estimated $17,284,239 (Federal

share) in unallowable maintenance costs." (Draft Report at 8 n.8.) However, a state-wide

ratio (j.e., 67 counties), such as that explained in the footnote, cannot be used to fairly

determine administrative costs purportedly tied to the maintenance claims at issue in th.is

phase of the Audit because this phase only includes one of the 67 counties in Pennsylvania.
                                                                                       Page 250[30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10,2010
Page 25


Allegheny County's eligible administrative costs on a per-child basis differ significantly from

those in other counties with a much smaller or larger number of eligible children.


               In an earlier phase of this Audit, GIG maintained, without explanation or

support, that its approach to identifying and calculating these "associated administrative

costs" is "reasonable." (See Final Phase II Report, at 14.) But, Summarily claiming that a

method is reasonable does not make it so.


               OIG also has noted in prior phases of this audit that its methodology is proper

because Pennsylvania "did not offer an alternative method of calculating administrative

costs on either a statewide or county-specific basis." (Id.) Pennsylvania, however, is not

required to identify alternative methodologies that OIG could employ to manufacture

phantom costs; it is GIG that bears the burden of establishing that the manner in which it

identified and calculated these so-called "associated" costs was reasonable and

appropriate. Cf. HHS DAB Appellate Division Practice Manual FAQ, available at

http://www.hhs.gov/dab/appellate/manual.html(.. [WJhen the disallowance amount

results from extrapolation from a sample measurement, the respondent [here, OIG/ACF]

must detail the statistical methodology used and be prepared to substantiate the validity of

the methodology upon inquiry.") Forthe reasons explained above, GIG has not met its

burden here.


               Accordingly, OIG's recommendation that Pennsylvania refund $11,022,902 in

purported "associated administrative costs" lacks support and should be withdrawn.
                                                                                        Page 260[30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10, 2010
Page 26


              2.      OIG Made Significant Extrapolation and Calculation Errors

              Although the universe of placement maintenance claims under review in this

audit phase contain 126,283 claim lines totaling more than $82 million, OIG selected and

reviewed only 100 claims with an aggregate value of $64.363 (Federal share) for Title IV-E

maintenance costs. (Draft Report at 2.) OIG then applied the results of the 100 claim

sample to the overall universe of claims through statistical extrapolation. (Jd. at 2-4.) The

Commonwealth objects to the use of such an extrapolation process as a means to

recommend and ultimately request refunds relating to millions of dollars of claims that were

never specifically reviewed. Furthermore, even assuming that such a process could be

used, OIG made significant errors in performing its extrapolation and as a result the

conclusions in its Draft Report are highly unreliable in several respects.


              First, OIG's own internal Variable Unrestricted Appraisal calculations

(attached as Exhibit P. ) amply demonstrate that the standard deviation of the point

estimate used to determine the amount of unallowable claims is so wide as to make the

calculations virtually useless as a measure of anything. OIG's calculations show that

standard deviation of the "difference" data (i.e., the difference between the 100 sample

claims extrapolated to the universe of claims and those sample claims that OIG would

accept extrapolated to the universe of claims) is more than three times the mean of that

same data: the mean is $134.97 but the standard deviation is $430 .74. This extremely wide
                                                                                                     Page 270[30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10, 2010
Page 27


distribution of numbers makes OIG's calculations volatile and unstable under any level of

statistical rigoL '"

                 Second, OIG fundamentally miscalculated the amount that purportedly

should be "set aside" for further review by ACF. As shown by Appendix C to the Draft

Report, OIG calculated the "set aside" figure of $27,913,816 by erroneously relying on the

"Point Estimate" of questioned claims (which it calculated as $16,890,914) and then adding

"associated administrative costs" of $11,022,902. However, in calculating the amount of

maintenance amounts that should be "set aside" due to the per diem rate issues identified

by OIG in only 15 of the 100 sample claims, OIG should have used the Lower Limit figure of

the questioned claims to extrapolate the sample findings to the universe of claims - i.e.,

the much lower figure of $8,015,863 (assuming a 90-percent confidence level) - just as it

relied on the "Lower Limit" figure when extrapolating from the 23 claims that it rejected

outright. (Draft Report at Appendix C.) Had OIG properly used the lower limit figure of

$8,015,863, the amount to be "set aside" for resolution by ACF on account of rate issues ­

even assuming the merit of OIG's concern and the applicability of its flawed methodology

for calculatingpurported "associated administrative costs" - would be $13,127,923

($8,015,863 in maintenance costs and $5,112,060 in "associated administrative costs").


         10 In addition to these flaws, OIG reported its financial estimates using the lower 90% confidence
level ratherthan the standard 95% confidence level. Had OIG properly reported its conclusions using the
standard 95% confidence leve'l, the lower limit ofits calculations using OIG's own flawed analysis would have
been $6,255,092 ratherthan the $8,015.863.
                                                                                         Page 280[30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10, 2010
Page 28


not $27,913,816. Therefore, regardless of the merit of OIG's concern over rates orthe

methodology it employed in calculating the purported "associated administrative costs,"

ACF must reduce the amount of any funds to be "set aside" for further discussion to no




              Therefore, it is clear that OIG's sampling design and extrapolation

methodology were fundamentally flawed, resulting in inaccurate and biased financial

estimates that are statistically unsound, highly unreliable, and legally insupportable. For

these additional reasons, the Draft Report should be withdrawn.

              3.      OIG Improperty Rejected Numerous Sample Claims

              As already explained, it is wholly improper for OIG to recommend

disallowances of previously submitted claims based solely on lack of documentation. OIG's

review should have been substantive ratherthan formulaic. OIG should have determined

whether the sample file contained evidence showing that the State took all necessary

actions priorto placement and that the child was eligible for Title IV-E benefits - not simply

whether the State could, for example, locate a specific court order containing special

language from as long as a decade ago. The use of any reasonable review standard would

result in a dramatic reduction of rejected claims. In any event, as explained below, OIG

misapplied its own unduly restrictive standards with respect to a number of sample claims;

those errors must be rectified.

              On June 15,2009, Pennsylvania sent OIG numerous documents relating to the

sample claim files. While OIG accepted some of those documents as establishing
                                                                                            Page 290[30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10, 2010
Page 29


eligibility, it rejected a majority of them. Pennsylvania continues to believe that all of the

documents submitted with its June 15,2009 letter show that the claims were eligible for

Title IV-E services. Pennsylvania therefore encloses and incorporates that letter and the

exhibits enclosed with it in this letter. (See Ex. Q, June 15,2004 Letter with exhibits.)

       E. 	    Pennsylvania Rejects All Recommendations Of The Draft Report

               Pennsylvania does not concur with any of the recommendations OIG makes in

the Draft Report. Pennsylvania has been unlawfully singled out in this enormously broad

Audit - an Audit putting more than $1.5 billion under revIew - based upon the results of a

small and statistically unreliable sample of unique reclassified claims from more than a

decade ago. All this was done at the apparent request of ACF regional staff. By acceding to

ACF's request, OIG acted outside of its statutory authority, failed to maintain the

i.ndependence and objectivity required by the Inspector General Act, and improperly

assumed ACF's own program operating responsibilities for ensuring'states' compliance with

all requirements for federal financial participation under the Social Security Act and

implementing regulations. The Audit also improperly focuses on claims submitted

numerous years ago, during a different state administration, and under far different

circumstances, rather than on the current status of Pennsylvania's child welfare system.

               In addition to the above problems with the Audit as a whole, OIG's findings in

this phase of the Audit lack an adequate factual or legal basis. OIG has left critical gaps in

its explanation of how it determined the amount of unallowable claims based on the result

of its sample findings. And OIG's conclusion that Pennsylvania must refund a proportionate
                                                                                                      Page 300[30




Stephen Virbitsky
Regional Inspector General for Audit Services
September 10, 2010
Page 30


amount of administrative costs allegedly "associated" with its maintenance costs has no

basis.

                  In sum, the Draft Report is rife with errors and wholly unsupportable

conclusions. There is no basis for the recommended disallowances and no reason for

Pennsylvania to "work with ACF" on anything that has to do with this arbitrary and

seemingly punitive course of events." The Draft Report should be withdrawn in its entirety

and any further actions related to this Audit should be immediately terminated.


                  Thank you for providing Pennsylvania with the opportunity to comment on the

Draft Report.


                                                   Very truly yours,


                                                   lsI Mark A. Aronchick
                                                   MarkA. Aronchick
MAA/saw
Enclosures
cc:    Harriet Dichter, Secretary of Public Welfare
         (w/en cl; via e-mail & first class maiO




        11 Pennsylvania, of course, stands ready and continues to "work with ACF" cooperatively in a host of
other contexts.
